<html>
<title> - OVERSIGHT HEARING ON EXAMINING DECADES OF DATA MANIPULATION AT THE UNITED STATES GEOLOGICAL SURVEY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


EXAMINING DECADES OF DATA MANIPULATION AT THE UNITED STATES GEOLOGICAL 
                                SURVEY

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       Tuesday, December 6, 2016

                               __________

                           Serial No. 114-55

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                            _____________
                            
                            
                 U.S. GOVERNMENT PUBLISHING OFFICE
22-862 PDF              WASHINGTON : 2017                          
___________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8deafde2cdeef8fef9e5e8e1fda3eee2e0a3">[email&#160;protected]</a>  
         
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Doug LaMalfa, CA                     Debbie Dingell, MI
Jeff Denham, CA                      Ruben Gallego, AZ
Paul Cook, CA                        Lois Capps, CA
Bruce Westerman, AR                  Jared Polis, CO
Garret Graves, LA                    Wm. Lacy Clay, MO
Dan Newhouse, WA                     Vacancy
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      LOUIE GOHMERT, TX, Chairman
             DEBBIE DINGELL, MI, Ranking Democratic Member

Doug Lamborn, CO                     Jared Huffman, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Bruce Westerman, AR                  Jared Polis, CO
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Vacancy
Alexander X. Mooney, WV              Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Rob Bishop, UT, ex officio
                              -----------                                
                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, December 6, 2016........................     1

Statement of Members:

    Dingell, Hon. Debbie, a Representative in Congress from the 
      State of Michigan..........................................     4
        Prepared statement of....................................     5

    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     1
        Prepared statement of....................................     3

Statement of Witnesses:

    Werkheiser, William, Deputy Director, United States 
      Geological Survey..........................................     6
        Prepared statement of....................................     8
        Questions submitted for the record.......................     9

                                     


 
  OVERSIGHT HEARING ON EXAMINING DECADES OF DATA MANIPULATION AT THE 
                    UNITED STATES GEOLOGICAL SURVEY

                              ----------                              


                       Tuesday, December 6, 2016

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              


    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 1324, Longworth House Office Building, Hon. Louie Gohmert 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gohmert, Labrador, Westerman, 
Hice, Radewagen, and Dingell.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gohmert. The Subcommittee on Oversight and 
Investigations will come to order.
    The subcommittee is meeting today to hear testimony 
examining decades of data manipulation at the United States 
Geological Survey.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and the Ranking Minority 
Member. Therefore, I would ask unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Subcommittee Clerk by 5:00 p.m. 
today.
    Hearing no objection, so ordered.
    I will now recognize myself for 5 minutes for an opening 
statement.
    Today, we will be examining decades of data manipulation 
that occurred within the United States Geological Survey, as 
well as the Agency's failure to take timely and appropriate 
corrective measures. USGS has been considered by many to be the 
gold standard of scientific integrity and reliability. That 
image has now been indelibly stained or, at best, profoundly 
shaken by the revelation of deliberate decades-long data 
manipulation.
    Incredibly, this committee has learned that the USGS had 
shut down the lab from the DOI's Office of Inspector General 
months after it happened. In 2015, the Department of the 
Interior Scientific Integrity Review Panel investigating this 
manner concluded that there was a ``chronic pattern of 
scientific misconduct'' at the inorganic laboratory in 
Colorado. The panel also concluded that the laboratory's 
chemist ``intentionally manipulated'' data.
    These shocking findings have not only impugned the 
integrity of the USGS, they also impugned the scientific 
underpinnings of policy decisions that may have been taken as a 
result of the USGS research.
    I should note that we are not talking about just a few 
fudged numbers here and there. This involves research and 
personnel going all the way back to 1996. When the data 
manipulation was discovered in 2008, new employees were 
shuffled in; and yet the fraud continued, tainting thousands of 
sample results.
    You might wonder how no one in USGS management noticed the 
junk science coming from the lab. Investigators offered one 
explanation pointing to the ``conscious acquiescence and 
inattentiveness of others in the laboratory and/or the center's 
management.''
    While the long-term costs to USGS's reputation may be 
incalculable, the Inspector General reported that from Fiscal 
Year 2008 through 2014, affected projects represented $108 
million. This does not include a prior decade of data 
manipulation. We are still trying to find out the extent of the 
projects that were affected and any policy decisions that were 
executed with falsified data. The reliability of data we are 
provided as lawmakers across a spectrum of issues is now called 
into question.
    USGS is likely going to assure us that it will never happen 
again, that new procedures are in place, manuals have been 
rewritten, new positions have been created, and on and on, with 
solutions that make us just want to forget all this and get 
back to blind faith in Federal science.
    However, in the discussion with our witness, I want one 
basic question answered--Why? Why did this happen? With all the 
briefings held with staff, the reports and audits written, we 
still do not know why this occurred. USGS told us it was the 
lab's lousy air conditioning, but then said that was not it. 
USGS told us the data was changed to account for variable 
calibrations, and then said that was not it.
    Finally, USGS offered up the excuse that it was plain 
incompetence. I still don't buy it. Nearly 20 years of fraud 
and more than $100 million flushed down the toilet; this should 
not be pinned on just one incompetent employee who was, 
remarkably, replaced by another incompetent employee. Not to 
mention the fact that the most recent fall guy had sterling 
employee evaluations.
    The primary concern is not just the mechanics of this 
fraud; there should be a clear explanation as to why it 
happened. Any proposed solution is meaningless without it.
    It is an unfortunate coincidence that our first hearing in 
this newly created subcommittee was on the lack of 
accountability of Federal science and the consequences of 
politically-driven science. Lives have been destroyed through 
the actions of Federal employees, motivated by entrenched 
ideologies, and use of manipulated data, or just garbage 
science. Let this hearing serve as a warning to any Federal 
employee who harbors thoughts of eschewing scientific integrity 
and transparency in order to advance some agenda. The 
subcommittee will not tolerate such actions, and will hold 
accountable those who act in such a manner or turn a blind eye.
    I would point out, as we said, the problems go back to 1996 
and were first discovered in 2008. This goes across Republican 
and Democrat party lines. This is a matter we need to get to 
the bottom of why it happened; so I appreciate your indulgence.
    [The prepared statement of Mr. Gohmert follows:]
Prepared Statement of the Hon. Louie Gohmert, Chairman, Subcommittee on 
                      Oversight and Investigations
    Today we will examine the decades of data manipulation that 
occurred within the United States Geological Survey as well as the 
Agency's failure to take timely and appropriate corrective measures. 
The USGS had been considered by many to be the gold standard of 
scientific integrity and reliability. That image has now been indelibly 
stained and, at best, profoundly shaken by the revelation of deliberate 
decades-long data manipulation. Incredibly, this committee learned that 
the USGS had shut down the lab from the DOI's Office of Inspector 
General months after it happened.
    In 2015, a Department of the Interior Scientific Integrity Review 
Panel investigating the matter concluded that there was a ``chronic 
pattern of scientific misconduct'' at the inorganic laboratory in 
Colorado. The Panel also concluded that the laboratory's chemist 
``intentionally manipulated'' data. These shocking findings have not 
only impugned the credibility of the USGS, they also impugn the 
scientific underpinnings of policy decisions that may have been taken 
as a result of USGS research.
    I should note that we aren't talking about just a few fudged 
numbers here and there. This involves research and personnel going all 
the way back to 1996. When the data manipulation was discovered in 
2008, new employees were shuffled in and yet the fraud continued 
tainting thousands of sample results. You might wonder how no one in 
USGS management noticed junk science coming from the lab. Investigators 
offered one explanation pointing to the ``conscious acquiescence and 
inattentiveness of others in the laboratory and/or the center's 
management.''
    While the long-term costs to USGS's reputation may be incalculable, 
the Inspector General reported that from fiscal year 2008 through 
fiscal year 2014 affected projects represented $108 million--this does 
not include a prior decade of data manipulation. We are still trying to 
find out the extent of the projects that were affected and any policy 
decisions that were executed with falsified data. The reliability of 
data we are provided as lawmakers across a spectrum of issues is now 
called into question.
    USGS is likely going to assure us that it will never happen again, 
that new procedures are in place, manuals have been rewritten, new 
positions have been created and on and on with solutions that make us 
just want to forget all this and get back to blind faith in Federal 
science.
    However, in the discussion with our witness, I want one basic 
question answered. Why? Why did this happen? With all the briefings 
held with your staff, the reports and audits written, we still do not 
know why this occurred. USGS told us it was the lab's lousy air 
conditioning but then said that was not it. USGS told us that data was 
changed to account for variable calibrations and then said it wasn't 
that either. Finally, USGS offered up the excuse that it was plain 
incompetence. I don't buy it. Nearly 20 years of fraud and more than 
$100 million flushed down the toilet--you can't pin this on one 
incompetent employee who was remarkably replaced by another incompetent 
employee. Not to mention the fact the most recent fall guy had sterling 
employee evaluations. My primary concern isn't just the mechanics of 
this fraud; there should be a clear explanation of why this happened. 
Any proposed solution is meaningless without it.
    It's an unfortunate coincidence that our first hearing in this 
newly created subcommittee was on the lack of accountability of Federal 
science and the consequences of politically driven science. Lives have 
been destroyed through the actions of Federal employees, motivated by 
entrenched ideologies, and use of manipulated data or just garbage 
science. Let this hearing serve as a warning to any Federal employee 
who harbors thoughts of eschewing scientific integrity and transparency 
in order to advance some agenda. This subcommittee will not tolerate 
such actions and will hold accountable those who act in such a manner 
or turn a blind eye.

                                 ______
                                 

    Mr. Gohmert. At this time, the Chair recognizes Mrs. 
Dingell for 5 minutes for an opening statement.

   STATEMENT OF THE HON. DEBBIE DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mrs. Dingell. Thank you, Mr. Chairman.
    Thank you, Deputy Director Werkheiser, for testifying 
today.
    The United States Geological Survey, or USGS, is one of the 
most esteemed scientific organizations in the world. The Agency 
earned its reputation through 137 years of unparalleled 
insights into everything from earthquakes to clean drinking 
water, and climate change to fossil fuel reserves.
    I also know how important their work is because the USGS's 
Great Lakes Science Center, which is in my district, has played 
an important role in helping to stop the spread of Asian carp 
in the Great Lakes. The effect of Asian carp, if they become 
fully established in the Great Lakes, is enormous, which is why 
I requested that this subcommittee hold a hearing on just one 
aspect of the damage--the effect on Great Lakes fisheries.
    In order to effectively protect that $4.5 billion in 
economic activity in the Great Lakes fisheries, we must have 
the best possible science from the best possible scientific 
institutions.
    In fact, you would be hard pressed to find a congressional 
district that has not benefited from USGS's work, which is why 
it is so disappointing that they have been dealing with a 
scientific integrity issue.
    For 18 years, chemists at a small lab in Colorado 
intentionally manipulated some of the data that they were hired 
to produce. Though none of the data was used to support any 
state or Federal regulations, seven papers were delayed and one 
had to be retracted.
    USGS had the chance to correct it when the data 
manipulation was first uncovered in 2008; but after they 
cleaned house and hired new analysts and management, the same 
data manipulation continued unabated until it was discovered 
again in 2014.
    The investigations that followed uncovered other disturbing 
things: the lab was found to be slow--they took seven times as 
long to analyze their samples as they should have, they were 
slow to identify the manipulation, they were slow to act to 
correct it and prevent the problem from happening, and they 
were slow to notify the customers.
    The investigations also found that management was asleep at 
the wheel. Not only did management fail to catch the problem, 
but one manager looked the other way for a few months. Making 
matters worse, they presided over, and may have facilitated, a 
toxic workplace environment. Offensive language and behavior 
created an atmosphere that was so intimidating that a 
scientific integrity investigative body concluded that it 
contributed to the lab's substandard performance. Their report 
indicated that when a female employee tried to blow the whistle 
on it, management failed to support her. Any organization that 
devalues women in their workplace will not last. The scientific 
integrity report cited this failure as one of the main reasons 
it recommended that the lab close permanently.
    The closure of this lab is a fair outcome. The USGS got a 
second chance to correct the problem, and they didn't. I 
believe the USGS should be held to a higher standard and that 
the lab closure was the right decision.
    Fortunately, all signs point to this problem being isolated 
to the inorganic lab. The closest comparison to the inorganic 
lab at USGS is the organic lab, which is reputable and in 
demand.
    The report by the Scientific Integrity Review Panel 
concluded that ``the organic laboratory section is an extremely 
productive, well-organized structure laboratory that is 
conducting important scientific research.'' Of course, the 
remainder of the Agency continues to churn out science that is 
essential to the Nation.
    At this point, there have been two Inspector General 
reports, a number of external audits, a number of internal 
reviews, and a scientific integrity investigation. At this 
point, there have been more investigations than the number of 
analysts that were in the lab.
    I will be interested to know what my colleagues on the 
other side think this hearing will add to the pile, and more 
specifically, how this new information will help the USGS 
become a stronger agency. After all, that is one of the primary 
functions of oversight--to improve the effectiveness of the 
agencies that serve the American people.
    So, I hope we can focus today on making sure we can learn 
from the well-documented mistakes, ensure that they will not be 
repeated, and focus on building the Agency up rather than 
tearing it down.
    Thank you, Mr. Chairman.
    [The prepared statement of Mrs. Dingell follows:]
    Prepared Statement of the Hon. Debbie Dingell, Ranking Member, 
              Subcommittee on Oversight and Investigations
    Thank you Mr. Chairman. Thank you, Deputy Director Werkheiser for 
testifying today.
    The United States Geological Survey, or USGS, is one of the most 
esteemed scientific organizations in the world. The Agency earned its 
reputation through 137 years of unparalleled insights into everything 
from earthquakes to clean drinking water, and climate change to fossil 
fuel reserves.
    I also know how important their work is because the USGS's Great 
Lakes Science Center, which is in my district, has played an important 
role in helping to stop the spread of Asian carp in the Great Lakes. 
The effect of Asian carp if they became fully established in the Great 
Lakes is enormous, which is why I requested that this subcommittee hold 
a hearing on just one aspect of the damage--the effect on our Great 
Lakes fisheries. In order to effectively protect that $4.5 billion in 
economic activity from Great Lakes fisheries, we must have the best 
possible science from the best possible scientific institutions.
    In fact, you would be hard pressed to find a congressional district 
that hasn't benefited from USGS's work, which is why it is so 
disappointing that they have been dealing with a scientific integrity 
issue. For 18 years, chemists at a small lab in Colorado intentionally 
manipulated some of the data they were hired to produce. Though none of 
the data was used to support any state or Federal regulations, seven 
papers were delayed and one had to be retracted.
    The USGS had the chance to correct it when the data manipulation 
was first uncovered in 2008. But after they cleaned house and hired new 
analysts and management, the same data manipulation continued unabated 
until it was discovered again in 2014.
    The investigations that followed, uncovered other disturbing 
things. The lab was found to be slow. They took seven times as long to 
analyze their samples as they should have. They were slow to identify 
the manipulation. They were slow to act to correct it and prevent the 
problem from happening. They were slow to notify customers.
    The investigations also found that management was asleep at the 
wheel. Not only did management fail to catch the problem, but one 
manager looked the other way for a few months. Making matters worse, 
they presided over--and may have facilitated--a toxic workplace 
environment. Offensive language and behavior created an atmosphere that 
was so intimidating, a scientific integrity investigative body 
concluded that it contributed to the lab's substandard performance. 
Their report indicated that when a female employee tried to blow the 
whistle on it, management failed to support her. Any organization that 
devalues the women in their workplace will not last. The scientific 
integrity report cited this failure as one of the main reasons it 
recommended that the lab be closed permanently.
    The closure of the lab is a fair outcome. The USGS got a second 
chance to correct the problem. They didn't. I believe the USGS should 
be held to a higher standard and that the lab closure was the right 
decision.
    Fortunately, all signs point to this problem being isolated to the 
Inorganic lab. The closest comparison to the Inorganic lab at USGS is 
the Organic lab, which is reputable and in demand. The report by the 
Scientific Integrity Review panel concluded that ``the Organic 
Laboratory section is an extremely productive, well organized, 
structure laboratory that is conducting important scientific 
research.'' Of course, the remainder of the Agency continues to churn 
out science that is essential to the Nation.
    At this point, there have been two Inspector General reports, a 
number of external audits, a number of internal reviews, and a 
Scientific Integrity Investigation. At this point, there have been more 
investigations than the number of analysts that were in the lab. I will 
be interested to know what my colleagues on the other side think this 
hearing will add to the pile and more specifically, how that new 
information will help USGS become a stronger agency.
    After all, that is one of the primary functions of oversight--to 
improve the effectiveness of the agencies that serve the American 
people. So I hope we can focus today on making sure we learn from the 
well-documented mistakes, ensure that they won't be repeated, and let's 
focus on building the Agency up rather than tearing it down.

                                 ______
                                 

    Mr. Gohmert. Thank you.
    At this time, I will remind the witness that, under our 
Committee Rules, oral statements are limited to 5 minutes. Your 
entire written statement will appear in the hearing record. 
When you begin, the light on the witness table will turn green, 
as it is now. When you have 1 minute remaining, the yellow 
light comes on. When time has expired, the red light comes on, 
and I will ask you to conclude your statement.
    At this time, the Chair recognizes Mr. Werkheiser for his 
testimony.

STATEMENT OF WILLIAM WERKHEISER, DEPUTY DIRECTOR, UNITED STATES 
                       GEOLOGICAL SURVEY

    Mr. Werkheiser. Chairman Gohmert, Ranking Member Dingell, 
and members of the committee, thank you for the opportunity to 
testify today. I am Bill Werkheiser, Deputy Director of the 
United States Geological Survey.
    The United States Geological Survey has served the Nation 
for 137 years, providing unbiased science for use by 
decisionmakers covering a wide range of policy issues. Our 
reputation for scientific integrity is essential to everything 
we do.
    That is why I am here today, to address a serious breach of 
scientific integrity at USGS. This is not a proud day for our 
agency's 8,670 employees. In my 30 years of Federal service at 
USGS, this is my lowest moment.
    In 2014, USGS identified a potential incident of scientific 
misconduct at the Inorganic Geochemistry Lab in Lakewood, 
Colorado. A scientist had been making improper adjustments to 
data from a machine used to measure heavy metals in coal and 
water samples. All work in the affected section of the 
laboratory was stopped and an internal investigation was 
initiated. USGS also promptly reported the possibility of 
scientific misconduct to the Office of the Inspector General.
    Our investigations into the incident confirm that this data 
manipulation constituted scientific misconduct. This closely 
resembled a similar incident at the Inorganic Section that had 
occurred from 1996 to 2008. The investigation also identified 
additional management and personnel problems, including 
indications of a hostile work environment.
    I suspect your questions are the same as mine--Why didn't 
we know this sooner? How could it have happened in the first 
place? How did it go on for so long without being detected?
    Following the recommendations of the investigation, the 
USGS closed the Inorganic Section of the Energy Geochemistry 
Laboratory effective March 1, 2016. All the employees 
implicated in the scientific integrity incidents are no longer 
employed by the USGS. We posted public notice of this incident, 
contacted customers of the inorganic lab, and carefully 
reviewed work products that could have made use of manipulated 
data from the lab.
    All failure of scientific integrity is a serious matter. 
Misconduct and mismanagement will not be tolerated at USGS. My 
job is to ensure a situation like this is never able to occur 
again. We are undertaking significant steps to enhance data 
quality assurance and quality control procedures.
    First, I have asked the National Academy of Sciences to 
assess all the bureau's laboratory programs, data quality 
assurance, and quality control procedures. Second, I 
established a strategic lab committee to ensure that all of our 
laboratory assets are managed to best support the science 
mission of the USGS. Third, the energy program is developing a 
comprehensive and rigorous quality management system to replace 
current procedures. This will include periodic external review 
and international benchmarking. Fourth, we have hired a 
permanent quality management system manager who reports 
directly to headquarters to avoid any potential conflict of 
interest, as well as two laboratory quality assurance 
specialists that will oversee data quality in USGS energy 
science centers. Taken together, these steps will ensure that 
any future data quality problems are identified quickly and 
dealt with immediately.
    In our 137-year history, the USGS has built a strong 
reputation on providing quality scientific information critical 
to the Nation. For example, our science has helped protect 
communities in the path of lava flows and prevented a 
catastrophic rupture along the Alaska pipeline. Most recently, 
we released an assessment that identified 20 billion barrels of 
technically recoverable oil resources in west Texas.
    We do, and have done, important work in service of this 
Nation, but none of that excuses or explains this incident. I 
am committed to upholding the long-standing USGS reputation for 
scientific quality and integrity. We will continue to address 
the issues which led to misconduct at this USGS lab and will 
make all changes necessary to prevent it from happening again.
    Throughout these incidents, we have tried to be accountable 
and transparent to the committee and the public. We have worked 
with your staff to provide briefings, documents, and other 
relevant information as quickly as possible, and to prioritize 
the delivery of the most critical documents to assist in your 
oversight.
    To date, we have provided 270 documents, consisting of more 
than 4,000 pages responsive to 27 of your 30 specific requests. 
We anticipate supplying the remaining outstanding documents as 
soon as possible.
    Thank you again for the opportunity to testify today. I am 
here to answer any questions you might have.
    [The prepared statement of Mr. Werkheiser follows:]
  Prepared Statement of William J. Werkheiser, Deputy Director, U.S. 
                           Geological Survey
    Chairman Gohmert, Ranking Member Dingell and members of the 
committee, thank you for the opportunity to testify today.
    The U.S. Geological Survey (USGS) is the Nation's largest water, 
Earth, and biological science and civilian mapping agency, and the 
science agency for the Department of the Interior. For over 100 years, 
USGS has published unbiased science for use by decisionmakers, the 
Department of the Interior and other Federal agencies, consumers and 
industry, and the general public. Our reputation for scientific 
integrity is central to everything we do.
    In October 2014 the USGS identified a potential incident of 
scientific misconduct at the Inorganic Section of the Energy 
Geochemistry Laboratory in Lakewood, Colorado. This laboratory provided 
chemical analysis of samples submitted by both USGS researchers and 
scientists outside of USGS. The misconduct centered on improper 
adjustments made to calibration and standardization curves of an 
inductively coupled plasma mass spectrometer, which typically was used 
to determine the concentrations of a wide range of heavy metals in coal 
and water samples.
    Local managers immediately stopped all work in the Inorganic 
Section and initiated an internal investigation. We also promptly 
reported the possibility of scientific misconduct to the Department of 
the Interior's Office of the Inspector General (OIG) in November 2014. 
The USGS Office of Science Quality and Integrity (OSQI) performed a 
preliminary review in March 2015 to investigate the incident. At the 
conclusion of that review, in accordance with USGS and Department of 
the Interior policy, the USGS convened a Scientific Integrity Review 
Panel (SIRP) in June 2015 to investigate the incident. Following its 
investigation, the SIRP concluded that a chemist repeatedly falsified 
data by making improper adjustments to calibration and standardization 
curves and that this manipulation qualified as scientific misconduct. 
This closely resembled a similar incident at the Inorganic Section that 
had occurred from 1996-2008.
    Following the recommendations of the SIRP, the USGS closed down the 
Inorganic Section of the Energy Geochemistry Laboratory, effective 
March 1, 2016. All of the employees implicated in either of the 
scientific integrity incidents are no longer employed by the USGS.
    The USGS posted public notice \1\ of this incident, and has since 
acted on the sole recommendation from the June 2016 OIG Report,\2\ 
which was to notify stakeholders about the scientific integrity 
incident. The USGS contacted customers of the Inorganic Lab and 
carefully reviewed work products that could have made use of 
manipulated data from the lab. The USGS continues to evaluate the 
potential impacts stemming from this latest incident, but to date we 
have not identified any policy or management decisions affected by the 
manipulated data.
---------------------------------------------------------------------------
    \1\ http://energy.usgs.gov/GeochemistryGeophysics/
GeochemistryLaboratories/Geochemistry LaboratoriesNotice.aspx.
    \2\ https://www.doioig.gov/sites/doioig.gov/files/
2016EAU010Public.pdf.
---------------------------------------------------------------------------
    Any failure of scientific integrity is a serious matter. The USGS 
has taken and is continuing to take significant steps to enhance data 
quality assurance and quality control procedures. The Energy Resources 
Program (ERP) is developing a comprehensive, rigorous and externally 
vetted Quality Management System (QMS) to replace current procedures, 
pursuant to a May 2015 OIG Report.\3\ The QMS will ensure data quality 
through transparency of operation, periodic external review, and the 
addition of extensive quality assurance and quality control practices 
that are the foundation of international and national laboratory 
standards for competence and quality.\4\ Additionally, the ERP is 
hiring a permanent QMS Manager, who will report directly to 
headquarters under the ERP Coordinator to avoid any potential conflict 
of interest, as well as two Laboratory Quality Assurance Specialists 
who will oversee data quality in USGS Energy Science Centers in Reston, 
Virginia, and Lakewood, Colorado. The QMS Manager has been hired, and 
will start work this month. This more robust QMS will place ERP 
management in direct coordination with data quality managers, thus 
ensuring that any future data quality problems are identified quickly 
and dealt with immediately.
---------------------------------------------------------------------------
    \3\ https://www.doioig.gov/sites/doioig.gov/files/
CREVGSV00032014PUBLIC.pdf.
    \4\ International Organization for Standardization (ISO)/
International Electrotechnical Commission (IEC) 17025, ``General 
requirements for the competence of testing and calibration 
laboratories'' and, The NELAC Institute (TNI), the national standard 
for laboratory accreditation.
---------------------------------------------------------------------------
    In addition, the USGS has created a Strategic Lab Committee to 
ensure that its laboratory assets are managed to best support the 
science mission of the USGS. This committee will assess laboratory 
assets that represent significant investments in personnel, facilities, 
equipment and operations across USGS mission areas and regions, and 
will also provide advice regularly on the strategic and tactical 
development of those assets. The USGS is also consulting with 
independent entities regarding assessments of the Bureau's laboratory 
programs, data quality assurance and quality control procedures.
    In our 137-year history, the USGS has built a strong reputation on 
providing consistent, quality scientific information critical to the 
Nation. Our science has helped protect communities in the path of lava 
flows and prevented a catastrophic rupture along the Alaska pipeline. 
Our scientists have elucidated the geochemical processes behind mercury 
contamination, uncovered the mysteries of white-nose syndrome in North 
American bats, and investigated avian influenza in American poultry 
farms. Just a few weeks ago, we released an assessment that identified 
20 billion barrels of technically recoverable oil resources remaining 
in the Wolfcamp Shale formation in the Permian Basin of west Texas. The 
societal value of these studies is why we are committed to upholding 
the long-standing USGS reputation for scientific quality and integrity. 
We will continue to address the issues which led to misconduct at this 
USGS lab, and will make all changes necessary to prevent such a thing 
from happening again.
    Throughout these incidents, we have been open and transparent about 
our activities. We have also worked with congressional staff to provide 
briefings, documents and other relevant information as quickly as 
possible. We appreciate the opportunity to provide this information, 
and look forward to continuing to do so.
    Thank you again for the opportunity to testify today. I will be 
happy to answer any questions you might have.

                                 ______
                                 

   Questions Submitted for the Record to William Werkheiser, Deputy 
                    Director, U.S. Geological Survey

Mr. Werkheiser did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

                Questions Submitted by Chairman Gohmert
    Question 1. In your testimony you maintained that, at the time, 
USGS had provided the subcommittee with 270 documents that were 
responsive to ``27 of your 30 specific requests,'' that were made in a 
September 23, 2016 letter from the subcommittee to USGS. In addition, 
you also testified that USGS anticipated ``supplying the remaining 
outstanding documents as soon as possible.'' Could you provide the 
subcommittee with a list of the 27 requests that you testified USGS 
satisfied by the December 6, 2016 hearing as well as the requests that 
were satisfied by USGS's December 20 document production, making 
specific note whether the requests were fully or partially satisfied?

    a. By approximately what date does USGS anticipate that it will be 
able to fully satisfy the subcommittee's requests, made in its 
September 23, 2016 letter?

    Question 2. When does USGS anticipate the National Academy of 
Sciences' bureau-wide review of USGS laboratory data assurance and 
quality control procedures to be completed?

    Question 3. In its September 23, 2016 letter, the subcommittee 
requested USGS to provide information that would illustrate all the 
disciplinary actions the Agency took after the discovery of years-long 
data manipulation, first in 2008 and then again in 2014. In its 
December 20, 2016 document production USGS provided the subcommittee 
with a number of documents that described various disciplinary actions 
taken against a number of USGS employees. Do the documents provided to 
the subcommittee by USGS in its December 20 production represent the 
full extent of the disciplinary actions taken by the Agency in response 
to nearly two decades of data manipulation occurring at the Lakewood, 
Colorado Energy Resources Program Geochemistry Laboratory as well as 
the issues identified in the September 21, 2015 Scientific Integrity 
Review Panel Report? If not, when does USGS anticipate it will be able 
to satisfy the subcommittee's request in full?

    Question 4. Your oral testimony noted that the Equal Employment 
Opportunity Commission determined that the safeguards USGS has in place 
to protect employees seeking to blow the whistle on potential workplace 
misconduct as well as policies that will ensure these matters are 
investigated fully are ``not totally adequate'' and are currently being 
revised. When does USGS anticipate that its revisions will be 
completed?

    Question 5. What changes were made in the lab's standard operating 
procedures for the mass spectrometer after the first period of 
scientific misconduct was discovered? How did they prove ineffective at 
discovering the second course of data manipulation?

    Question 6. In regards to allegations that laboratory personnel 
created a hostile work environment and that both management as well as 
the human resources offices failed to act on employee complaints, you 
testified that USGS is continuing to actively investigate this matter. 
When does USGS estimate this investigation will be completed and 
provide the subcommittee with a copy of the investigative report?

    Question 7. A document provided to the committee noted that after 
the first iteration of data manipulation was discovered, the lab's 
manager and QA/QC officer reviewed 7 months' worth of the work produced 
by the analyst over a 12-year period. According to the document, the 
reviewers ``did not find a single job without data manipulation,'' 
estimating that over 2,500 samples had analysis data manipulated. Could 
you provide the committee with the total number of sample analyses that 
have had data manipulated during the entire 18-year course of 
scientific misconduct?

    Question 8. Currently, how many USGS labs are operating with fully 
implemented Quality Management Systems (QMSs)? How many are not? Will 
the QMS currently being developed by USGS encompass laboratories 
agency-wide or will individual laboratories retain their own QMSs? In 
the event that individual labs are permitted to retain their own QMSs, 
are these systems review and approved by USGS headquarters?

    Question 9. USGS has established that data manipulation incidents 
occurred between both 1996 and 2008, as well as 2008 and 2014. How were 
these particular beginning and end dates established?

    a. With what frequency did the data manipulation occur?

    b. Are you able to isolate any particular time periods, such as 
weeks or months, during which the data manipulation did not occur?

             Questions Submitted by Ranking Member Dingell

    Question 1. I'm concerned about the blank pages from the document 
production the Chairman held up at the end of the hearing. Why were 
they blank?

    Question 2. What is the evidence the analysts did not manipulate 
the data in order to achieve a desired outcome? How do we know the data 
was not manipulated to suit an agenda?

    Question 3. I want to follow up on a question about the financial 
impact of the second incident that was raised in the hearing. Mr. 
Werkheiser indicated that the $108 million assessed by the Inspector 
General (IG) was not fully explained. Please explain it.
    Question 4. The IG report detailed the studies impacted by the 
second incident. Is that the entirety of the impacts from the second 
incident? Can we say with confidence that the impacts from the second 
incident are fully known or are known to the extent possible? What 
uncertainties about the extent of the impacts of the data manipulation 
remain for both of the incidents?

                                 ______
                                 

    Mr. Gohmert. Thank you, Mr. Werkheiser. We do appreciate 
your testimony. We appreciate you being here. I know that is 
not the most fun thing to do. But we will begin the 
questioning, and I will recognize myself for 5 minutes.
    You have talked about the troubling aspect of this issue, 
but like I mentioned in the opening statement, going back to 
1996, that is during the Clinton administration; through 2008, 
that is the Bush administration; to 2014, that is the Obama 
administration. I have to tell you, Mr. Werkheiser, when I 
first got elected, I can remember walking around Stephen F. 
Austin University, and they have done some great work in 
conjunction with the United States Geological Survey. I looked 
at this stuff from the USGS, and my thought, going back to high 
school, wow, the USGS, this is really quality stuff. And I got 
the high grade in science in my high school, and I remember 
seeing USGS, wow, this is really impressive. This is really 
quality stuff, as we talked about the gold standard.
    So, it is really heartbreaking to think about all of the 
great work that has been done to build this phenomenal 
reputation of the United States Geological Survey, to come 
around to the point where we are now, where we have had years 
of just falsity and fraud, manipulating data. You got rid of 
one employee--and really, it doesn't sound like there were a 
lot of consequences there. That is deeply troubling. If 
somebody's falsifying data, it ought to be a blight on their 
total reputation and their professionalism.
    But I come back to the question I mentioned in my opening 
statement--To what end? Why the continued falsification and 
manipulation of data? Do you have an answer to the why? As a 
lawyer, I was taught never ask the question ``why,'' but I 
really, truly want to know.
    Mr. Werkheiser. I share your concern. I was appalled and 
devastated when I learned of this incident. Like you, when I 
was in school, I learned of the USGS through an article that 
said the USGS was the best at what it does in the world. That 
made me want to become part of USGS, so I was deeply, deeply 
appalled when I learned about this incident.
    While I cannot look into the mind of the analysts involved, 
what I can say is that with this instrument, when the raw 
information comes off of it, it often needs to be adjusted to 
comply with standards that are run.
    Mr. Gohmert. Well, Mr. Werkheiser, we had heard that 
originally that you have to change it some because of the 
calibration. But then it turned out, we heard from USGS, that 
really does not explain all of the falsification that we have 
here. So, I appreciate that position, but we heard that before 
and then it turned out that really was not the proper 
explanation.
    Let's try again. Do you have some other explanation for 
why?
    Mr. Werkheiser. The issue is that those adjustments were 
well outside of established standards. And while I cannot look 
into the mind of the person or the analyst----
    Mr. Gohmert. You said that twice now, but the fact is you 
can ask the scientist why. Did you ever ask these people, ``Why 
did you do this? ''
    Mr. Werkheiser. Yes, they were asked why. Their explanation 
was that they felt those manipulations were justified when, in 
fact, they were not. We looked at it to see if there is a 
pattern of that manipulation. Was it consistently high, higher 
than the value should have been? Was it consistently lower than 
the value could have been? Were they trying to drive some 
agenda to falsify that data?
    There was no consistent bias in that information. Sometimes 
it was high, sometimes it was low. In fact, the way the samples 
are submitted, there is no way for them to know what those 
samples are going to be used for. The project is not 
identified.
    So, I cannot explain exactly why, except from what they 
tell us. It was in an effort, in their minds, to provide more 
accurate information, which is absolutely not the case.
    Mr. Gohmert. That is total irony. You manipulate data in 
order to make it more accurate. That is totally incongruent.
    What do you believe is the long-term effect of USGS's 
reputation in the science field? I mean, you have university 
students that are now saying, ``What are we supposed to do? 
This is totally bogus science here.''
    Mr. Werkheiser. This is damaging to our reputation. There 
is absolutely no doubt about that. All I can do is to ensure 
that we rebuild and regain that reputation. The four steps I 
outlined before: bringing in the National Academy of Sciences, 
a very prestigious organization, to evaluate our protocols to 
help us into the future; the establishment of our strategic 
laboratory committee to look at all our assets, every lab we 
have; and the implementation of a QMS, quality management 
system, that will eventually encompass all of our laboratories 
across the USGS will help to rebuild that reputation.
    Mr. Gohmert. Has that been done?
    Mr. Werkheiser. The quality management system is underway.
    Mr. Gohmert. All right. Well, my time has expired.
    I recognize Mrs. Dingell for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Deputy Director Werkheiser, because I so value USGS's work 
that it does and the people that work there, I want to ask you 
about the workplace environment at the lab. As you know, the 
Scientific Integrity Review Panel was appalled to learn that 
there was a toxic work environment characterized by ``use of 
offensive language and behavior'' that appears to be created, 
at least in part, by a lab analyst that was flippant and 
difficult to work with.
    When a female staff member brought the issue to the 
attention of two levels of management, management and human 
relations appeared to have failed to adequately address the 
harassment. She was reportedly one of the several recipients of 
bullying behavior in the lab.
    While this sounds like it is not a case of sexual 
harassment, because it happened to men and women, it is a case 
of harassment that apparently also went for a very long time 
without being addressed. In fact, it might not have been 
discovered at all or paid attention to, even though it was 
being reported, if not for this particular scientific integrity 
investigation.
    I want to know how, in the absence of this kind of 
investigative report in other parts of USGS, can we know that 
such a hostile work environment has not taken root elsewhere in 
the Agency?
    Mr. Werkheiser. Thank you for the question. I also was 
deeply disturbed to learn of the hostile work environment at 
play here. I am appalled at that environment. So, the main 
question of ``How can we be assured that this does not happen 
elsewhere in the Agency? '' is one of great importance to me.
    I will point to two things where I say I am confident that 
is not a culture within USGS. The two things I will point to 
are: if we look at our sexual harassment claims, they are the 
lowest in the Department of the Interior; and when you look at 
our Federal Employee Viewpoint Survey results, we consistently 
score higher--and these results are used to evaluate work 
employee engagement, employee satisfaction--those results are 
consistently higher than the Department and consistently higher 
than the government overall.
    However, those are just statistics. Even one instance of 
hostile environment or sexual harassment is one too many. Our 
job is: ``How do we ensure that we have a workplace where 
people feel safe and are comfortable bringing issues of this 
nature forward and not be afraid of any type of retaliation or 
retribution? ''
    In doing that, we take it very seriously, and we are 
undertaking a number of things that are happening. First, is 
that all the executives within USGS have attended training on 
workplace environment, workplace culture. That training will be 
cascaded through the organization until every employee has 
received that training and is made aware.
    The other thing we have done is, in looking at this case in 
particular, it is clear that the employee did not feel 
comfortable coming forward. So, we need to have advocates for 
employees who represent their interest, and that they can go to 
confidentially and not be concerned about any retribution or 
any type of stigma attached to coming forward. We are working 
with the Department of the Interior to make our employees have 
access to an ombudsperson, at least one, maybe several, to 
ensure that confidentiality and that advocacy.
    The other thing I will say is that our Director takes this 
issue very seriously. She has issued several memos and 
communications with employees on the issue. She has developed a 
work group to look at, in particular, workplace issues and 
reaching out to organizations such as the American Geosciences 
Institute and the American Geophysical Institute--or Union--to 
look at the processes and the lessons learned, the best 
practices from those very large institutions and bringing those 
into USGS.
    Mrs. Dingell. Let me quickly ask you two questions. I work 
there, and I want to report a harassment. How can I do that, be 
assured that my whistleblowing will remain confidential to all, 
including my supervisor? And how do I know it will be 
investigated fairly, thoroughly, and promptly?
    Mr. Werkheiser. We have worked with our Office of Diversity 
and Equal Opportunity. That is where those claims are looked at 
and investigated. And we have had that looked at by the EEOC; 
and, I guess several years ago now, they determined that our 
systems were not totally adequate to ensure just what you had 
asked, that confidentiality and that ability to look and 
investigate an issue fully without any type of stigma attached 
to it. We are revising our policies in our office. We are 
working with the Department to do that.
    Mrs. Dingell. Thank you.
    Mr. Gohmert. Thank you, Mrs. Dingell. I really do 
appreciate your getting into that issue like that. I was 
reminded, in very recent years, we actually impeached a couple 
of judges, and one of them was about the workplace environment 
and harassment of the women on his staff. He should have been 
thrown out of office for the things he was doing.
    I am wondering out loud here, maybe we need to encourage 
people that work in the Federal Government, if you have a 
hostile workplace environment, maybe we need to know and drag 
those people up here and over the coals, so that if they are 
tempted to abuse people working for them, particularly women 
working for them, maybe you will get a chance to come up here 
and be totally humiliated in front of the whole world. We will 
have to keep that in mind.
    At this time, I would recognize Mr. Labrador for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman.
    Thank you, Mr. Werkheiser, for being here today.
    In reviewing some of the facts of this case, do you believe 
that the chemist most directly involved with the data 
manipulation was qualified for the job?
    Mr. Werkheiser. Using the instrument that he first started 
on in 2010, or I believe it was 2009, yes. New instrumentation 
was procured in 2012, and evidence indicates that he was not 
qualified to operate that instrument.
    Mr. Labrador. It appeared that other employees of the 
inorganic chemistry lab were aware that the chemist in question 
did not even have sufficient database experience to do his job. 
They described his Microsoft Excel knowledge as rudimentary, 
i.e., freshman college level. The SIRP report team called this 
incomprehensible that this chemist in question was hired to 
work within this facility without possessing adequate data 
processing skills.
    This man was a 30-year employee of the USGS working with 
expensive equipment, handling projects with a value in excess 
of $100 million. How did he maintain his employment?
    Mr. Werkheiser. Most of his career, he was working in a 
different lab doing different things. And he was transferred to 
the Inorganic Geochemistry Lab, I believe, in 2009 or 2010, 
where he took over those new duties. So, it was clearly a 
management failure at several levels.
    And, again, through these procedures and through this 
quality management system implementation, we intend to make 
sure that does not happen again; or, if it does happen, that we 
catch it quickly and take appropriate action.
    Mr. Labrador. I am trying to understand, because you, Mr. 
Werkheiser, you are one of the best witnesses that I have ever 
seen in Congress. I really want to praise you for taking 
responsibility. You seem to really care about your job, so I am 
trying to understand how this happened. With somebody that 
really cares about what they are doing, you have so much pride 
in the work that you do, how did this happen? Have you thought 
about that?
    Mr. Werkheiser. I have thought about it often, long and 
hard. The responsibility for ensuring that our employees are 
doing their jobs and are accountable to their jobs resides in 
all levels of management, from first-line supervisor up to the 
Director of the United States Geological Survey. Failures along 
the way are inexcusable, and I need to do a better job of 
holding my supervisors accountable, and that will trickle down 
through the organization.
    Mr. Labrador. I am concerned by this and think everyone 
should be concerned, as you are. Here we have employees of what 
has already been described as the gold standard of scientific 
institutions, and they do not have the basic knowledge 
necessary to enter data into a computer. How do we know this is 
not happening in other labs in Denver or in every other Federal 
lab in the country?
    Mr. Werkheiser. Yes, we have a number of labs throughout 
the country. And, in fact, one of the labs in Denver that you 
just mentioned is our National Water Quality Lab. Whereas the 
lab in question, the Inorganic Geochemistry Lab, processed 
about 575 samples a year, the National Water Quality Lab 
processes about 35,000 to 40,000 samples a year. So, the 
throughput is much larger and employs a much larger staff.
    The quality controls at that Denver lab, the National Water 
Quality Lab, are stringent. It is a best practice. It is 
recognized. It is reviewed often by external agencies. And 
there are other labs. Most of the labs across USGS that have 
that type of volume and that type of stature have similar 
quality management systems in place.
    We have other labs that are research labs. Those are 
staffed by one or two people. They do work for their project. 
They may be developing methods that do not exist at this time, 
looking at very unique types of constituents. Those quality 
management systems are not as robust because they do not exist, 
but our new effort to implement here in this quality management 
system will eventually encompass all those labs.
    Mr. Labrador. Can you give us some reason to continue to 
have faith in the research produced by the USGS?
    Mr. Werkheiser. Yes. As I said, I am confident that this 
was an isolated example. We have other quality assurance 
measures in place. For example, many of the projects that use 
this lab have their own quality assurance procedures in place, 
and they actually caught a number of the issues and did not use 
that information because they have those quality assurance 
procedures.
    Mr. Labrador. Does the energy resources program at Lakewood 
facility have a fully functional quality management system in 
place?
    Mr. Werkheiser. Not at this time. That is what is being 
implemented now.
    Mr. Labrador. How is it possible that it has taken this 
long to still not have a quality management system?
    Mr. Werkheiser. We have had quality management systems. 
They were not effective, as we mentioned in the opening 
statement. There have been a number of reviews, in particular, 
in this lab. After the 2008 incident, there was an internal 
review by a team from outside the lab. There was an external 
review in 2012 that had 29 recommendations that were 
implemented. But it was the responsibility of the local 
management to implement those recommendations, and they were 
slow to do that.
    Those previous efforts were not successful, so we need to 
ensure that this future effort is successful. We believe that 
the robust system that we are putting in place, even though it 
will take some time to put in place, is the way to go. It is 
the right way to do it, and we have tried other ways that have 
not been effective.
    Mr. Labrador. OK. Like I said, I have really enjoyed you as 
a witness, and I want to believe you. But the fact that we do 
not have the system in place is very concerning to all of us.
    Mr. Gohmert. Thank you, Mr. Labrador.
    At this time, the Chair recognizes Mr. Westerman for 5 
minutes.
    Mr. Westerman. Thank you, Mr. Chairman.
    And, Mr. Werkheiser, thank you for your, pretty much, raw 
testimony today. I know this is not the first time this issue 
has been discussed in this committee. The last time there was 
only a little bit of smoke and we thought there was probably 
some fire, and I think you have verified that there was 
wrongdoing and definitely fire associated with this, 
figuratively speaking, obviously.
    I would like to commend the Chairman and the Ranking 
Member. And I think this is a sign of the seriousness of this 
issue that scientific intellectual integrity is an important 
thing to everyone across these party lines, and it is something 
that we simply just cannot tolerate.
    If you look at the founding of our greatest educational 
institutions in this country that even predate the 
Constitution, the motto of Harvard is veritas, which means 
truth; if you look at Yale, it is Lux et veritas, light and 
truth, so transparency and truth. This Nation has held that to 
be paramount for a long time, and when issues like this happen, 
it troubles us.
    Personally, I worked as an engineer for over 20 years, and 
I used USGS data. And it makes me think, did I make 
professional decisions that I am accountable for based on 
flawed data? Even though it was not this data, but it was USGS 
data, and there are thousands and thousands of people across 
the country that have experienced that.
    When we think about what has happened and how to move 
forward and why we, as Members of Congress and keepers of the 
taxpayers' dollar, should continue to invest in USGS, I think 
we need a better answer. I know that this data may not have 
been used directly in policy, but how much of this data was 
used by people in industry, or people in research.
    How much of it--I mean, testing coal and heavy metals. Were 
there bad decisions made that resulted in somebody doing 
something in a process that harmed the environment? Were there 
decisions made that prevented someone from using something in a 
process that caused economic damage?
    I think we need a better explanation, that you go back and 
find out exactly why this data was manipulated, what the far-
reaching effects are. There is a proverb that says that if a 
thief is caught, he should repay it seven times over. I think 
USGS needs to do a more in-depth investigation so that we feel 
comfortable that the problem has been rectified and it will not 
happen again.
    Are there any efforts underway to go back and trace the 
knowledge trail to see where this data might have been used 
and--even public opinion may have been influenced by articles 
that were written based on this research which actually could 
affect policy decisions. Where are you in the process of 
actually going back and uncovering the real damage that was 
done?
    Mr. Werkheiser. Yes. We are continuing to investigate the 
original information. Part of the issue and part of the reason 
that makes this so bad is that standard procedures for keeping 
records were not kept. So, the raw data that came off was not 
necessarily archived.
    However, we have gone back and we have retrieved a 
significant amount of that information from other sources, and 
we are evaluating what that manipulation exactly looked like, 
how severe was it, can we re-create what the values should have 
been. We did not have that information when we first started 
the investigation. We have some of that now. So, we are hoping 
to go back and learn from that.
    We were also making an effort to go back and, as you say, 
take a look at the stakeholders that may have used products 
from this lab. Most of those were internal, and we feel 
confident that none of the data used from this, at least this 
latest incident, made it into the public domain, that the 
projects that had those analyses run were able to capture it. 
It was definitely inefficient and cost money, but they were 
able to use other means to reach their conclusions, multiple 
lines of evidence.
    Mr. Westerman. So, 20 years of research and none of this 
ever got outside of the USGS?
    Mr. Werkheiser. I should have been clear. It was this 
latest incident from 2010, 2009 to 2014. We cannot evaluate the 
previous 1996 to 2008. That information does not exist. 
However, we have talked to scientists who used that 
information, who had projects back in that time frame and we 
are evaluating the potential impacts from that.
    The other thing we are doing is we are looking at those 33 
projects that used the information from the latest incident and 
are trying to backtrack that to look at all stakeholders, so 
that even if the data did not make it into the public domain, 
there may have been informal communications with others, and we 
are trying to backtrack that also.
    Mr. Westerman. So, you could maybe do research on where the 
lab was cited back as far as 20 years ago in other research 
papers. And also--I know I am out of time, but when do you 
expect to have that report to us on the effects of the 
manipulated data?
    Mr. Werkheiser. Yes. It will take several months to do that 
investigation, but certainly as soon as we have it, we would be 
happy to come and talk to you about it.
    Mr. Westerman. I yield back, Mr. Chairman.
    Mr. Gohmert. Thank you.
    At this time, the Chair recognizes Mr. Hice for 5 minutes.
    Dr. Hice. Thank you, Mr. Chairman.
    And, Mr. Werkheiser, thank you for being here to try to 
answer some pressing questions.
    Obviously, it is disturbing to all of us, disturbing to you 
as well, I am sure, and you have communicated to that. But when 
you have decades of falsified, manipulated data, we all 
recognize it is inexcusable. And it is phenomenal to me that 
something like that can even take place for so long and either 
not be checked or be overlooked. Whichever the case was, it is 
inexcusable.
    Then we find that, as you mentioned, I believe it was 2008 
when a new scientist was brought in, he immediately begins 
doing the same thing, and earlier this year receives a 30-year 
service award. It sounds like it is like a resume enhancer to 
come in and be involved in data manipulation. But the fact that 
it was intentional and continuous is very difficult to wrap my 
mind around, and I am sure others feel the same way.
    Let's go to this second chemist, the new chemist that came 
in. We already had, from 1996 to 2008, a long period of 
manipulated data. We finally have a new chemist come in, and in 
2014, discovered that that chemist, as I mentioned earlier and 
the Chairman did as well, had also been manipulating data.
    How long did that chemist stay on the payroll after his 
fraudulent activity was discovered?
    Mr. Werkheiser. In October of 2014, a stop work order was 
issued, and that chemist was involved in trying to re-create 
the work he had done. Personnel actions were initiated, and I 
believe it was June 2016 when the separation took place.
    Dr. Hice. All right. June 2016, after he had received a 30-
year length-of-service award. Did he retire? Did he get full 
benefits?
    Mr. Werkheiser. I would be happy----
    Dr. Hice. Please provide that information. I would be 
curious to know.
    So, for 2 years he still remained on the payroll. What was 
he doing?
    Mr. Werkheiser. Trying to re-create the information that 
was in question.
    Dr. Hice. Trying to re-create the falsified information?
    Mr. Werkheiser. Trying to justify his actions to the 
investigative bodies, the various bodies that went through that 
lab.
    Dr. Hice. So, we, the taxpayers, were paying for a guy who 
manipulated data to justify why he manipulated it. Is that what 
you are telling us?
    Mr. Werkheiser. Well, to look at exactly the questions you 
had asked: Why did this happen, how did it happen.
    Dr. Hice. That sounds to me like it could be done through 
interrogation rather than giving him 2 years on the payroll.
    Mr. Werkheiser. Our personnel processes are complex.
    Dr. Hice. Did no one interrogate him?
    Mr. Werkheiser. They certainly questioned him.
    Dr. Hice. I am not going to use that word ``interrogate.'' 
Did no one try to just sit down and get the facts on the table?
    Mr. Werkheiser. Yes. Several times.
    Dr. Hice. Did it take 2 years of him doing it on his own, 
and being paid? I mean, I don't understand this. It sounds to 
me like there is a brief slap on the wrist and he continues on 
the payroll until he is ready to retire, after he receives an 
award.
    Mr. Werkheiser. The length of service is exactly what it 
says. You work for 30 years and you get recognized for that. I 
don't think it was a slap on the wrist.
    Dr. Hice. Let's not go on--my time is short--what 
disciplinary actions do you have against employees who commit 
data manipulation and fraud or commit something against 
supervisors?
    Mr. Werkheiser. There are various penalties, including 
suspension without pay up to separation from the Agency.
    Dr. Hice. But that obviously did not occur in this case?
    Mr. Werkheiser. The action was initiated, yes.
    Dr. Hice. After 2 years?
    Mr. Werkheiser. No. I mean, it was initiated, not right 
away but----
    Dr. Hice. What discipline did he incur?
    Mr. Werkheiser. The investigation, as I said, is complex, 
takes time.
    Dr. Hice. My question has to do with what discipline action 
was taken.
    Mr. Werkheiser. Again, I would be happy to provide that 
information.
    Dr. Hice. Provide the information, Mr. Werkheiser. It seems 
like that would be something you would come to this committee 
hearing prepared to answer.
    Mr. Werkheiser. I cannot answer.
    Dr. Hice. All right.
    Mr. Chairman, I have one further question.
    Mr. Gohmert. Without objection.
    Dr. Hice. Thank you.
    This subcommittee has repeatedly asked, since the September 
23 letter, for the performance evaluation of these two chemists 
who committed the manipulation. To this point, we have still 
not received those evaluations. When can we expect to receive 
that?
    Mr. Werkheiser. That information has left the USGS, is at 
the Department being reviewed at this time. Part of the reason 
it took so long to produce is that we had to retrieve that 
information from OPM. When the information came, much of that 
information was non-responsive to the specific request. So, we 
went through it and brought out the specific information 
requested. That is now at the Department being reviewed and 
will be here as soon as it is----
    Dr. Hice. With all due respect, sir, we are the ones that 
want to review that information. We are the ones who requested 
it, and we expect it. When will we receive that?
    Mr. Werkheiser. It is at the Department, and we have, as I 
am sure you are aware, we have----
    Dr. Hice. Can you give me a general time line?
    Mr. Werkheiser. Approximately 2 weeks.
    Dr. Hice. Thank you, sir.
    I now yield back. Thank you for your indulgence, Mr. 
Chairman.
    Mr. Gohmert. Thank you.
    At this time, Mrs. Radewagen is recognized for 5 minutes.
    Mrs. Radewagen. Thank you, Mr. Chairman.
    Thank you for your appearance today, Mr. Werkheiser.
    I assume the lab lost a significant amount of credibility 
when the disclosure was made. What is really amazing and 
troubling among many details of this case is that the lab went 
ahead as if nothing occurred, and you doubled down on a 
$174,000 piece of equipment that no one either knew how to 
operate, cared enough to operate correctly, or was even 
interested enough to oversee.
    How do you justify buying a new piece of equipment like a 
mass spectrometer when no one was willing to verify that it was 
operated correctly?
    Mr. Werkheiser. In any laboratory situation, upgrades of 
equipment are a common business practice, and we need to stay 
on the forefront of technology. When new equipment comes out, 
oftentimes, I know in my experience in the Water Quality 
Laboratory, when the new generation of equipment comes out, 
they process more samples in a shorter amount of time and are 
more efficient in the processing of that information. Plus, 
they provide information that is more accurate and more 
reliable.
    So, the purchase of equipment is a standard business 
practice that occurs throughout our labs. In this case, the 
critical failure was in not training this individual, not 
ensuring that this individual had the appropriate training and 
background to operate the equipment appropriately. That is a 
management failure. And that, again, is something that we 
recognize and that we will move forward to correct as part of 
some of the tasks we are undertaking to improve the quality of 
our laboratories.
    Mrs. Radewagen. We have one report stating the lab had an 
average turnaround time of 224 days to process samples. Did the 
lab have a reputation for long turnaround times to process 
samples?
    Mr. Werkheiser. It did, much longer than could be achieved 
in private laboratories. So, in addition to the scientific 
misconduct and integrity issues, the decision to close the lab 
also included those operational issues, such as turnaround 
time, and efficiency and value to the taxpayer.
    Mrs. Radewagen. So, coupled with knowledge that the lab had 
a history of inaccuracies and slow turnaround, why was 
management so complacent, or as the Scientific Integrity Review 
Panel described, characterized by conscious acquiescence and 
inattentiveness? Didn't that ultimately let the fraud continue 
until 2014?
    Mr. Werkheiser. Yes, it clearly was a management failure. 
As managers and as supervisors, we owe it to the taxpayer and 
to this country to hold ourselves and our employees 
accountable. That did not happen in this case.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back.
    Mr. Gohmert. All right. Thank you.
    We do have a few more questions. For one thing, you heard 
from the Ranking Member that the SIRP reported that a culture 
of harassment existed at the lab. That is so incredibly 
serious.
    And, by the way, we have been going through this hearing 
all this time and I don't believe a single name has been 
mentioned. We are covered by Speech and Debate Clause privilege 
regarding things that are said on the record. But for the 
record, who was the person who was manipulating the data 
beginning back in 1996? We haven't even heard a name.
    Mr. Werkheiser. Again, I would be happy to provide that in 
private. Our advice is that because this is being broadcast, 
that we should not, because of privacy concerns----
    Mr. Gohmert. Well, that is the whole reason I ask. If 
somebody is making an abusive workplace, I want their name out 
there. They should not be provided protection from having their 
name mentioned. And with regard to privacy concerns, that is 
what I am saying. This is protected. You don't have to worry 
about lawsuits.
    But if somebody is abusing female employees, I think it is 
good to talk about, like we did in Judiciary when we had a 
judge doing that. I would like for any man that is tempted to 
do that to realize that some day his name is going to be 
brought up in a broadcast.
    Mr. Werkheiser. What I can say is those employees are no 
longer with the United States Geological Survey. I would be 
happy to provide that information to you privately. My advice 
has been not to provide that publicly because of the public 
nature of this hearing.
    Mrs. Dingell. Mr. Chairman, I do think that we need to make 
the point this is still under active investigation and that the 
committee probably has the right at the end of the 
investigation to ask for the findings. Is that correct, that 
this is still under active investigation?
    Mr. Werkheiser. Yes.
    Mr. Gohmert. That is the case, OK. It is still under active 
investigation. So, the investigation is not concluded. Is that 
right?
    Mr. Werkheiser. Well, the overall investigation is not. 
Those employees are no longer with the United States Geological 
Survey, but there is still an active component going on.
    Mr. Gohmert. Active component to what?
    Mr. Werkheiser. To learn exactly what happened, what the 
nature of the issues were, how severe it was. It is not a 
formal investigation, but we are still investigating the issue.
    Mrs. Dingell. Mr. Chairman, again, so I had had questions 
about how are they allowed to retire, what were the 
circumstances, were people held accountable. Are we going to 
ultimately get that report?
    Mr. Werkheiser. I----
    Mrs. Dingell. I shared your concerns.
    Mr. Werkheiser. Yes. We----
    Mrs. Dingell. So, I was told it was still under active 
investigation. They did not have that yet, but I think this 
committee would like to see it when you do.
    Mr. Gohmert. Right.
    Mr. Werkheiser. We can certainly provide that to the 
committee, yes.
    Mr. Gohmert. All right. Thank you. Well, I would very much 
like to have that information.
    And if the investigation has formally concluded--you say 
there may be some informality in the continuation. Well, if it 
is formally concluded, I would like this committee to have 
access to that information to know who was creating the 
problem. And I don't care if they retired or not. There need to 
be consequences. Even if at a minimum, it is having your name 
discussed on the record as someone who is abusing the employees 
under your supervision.
    So, you are agreeing to get us that information, with 
regard to the investigation?
    Mr. Werkheiser. Yes.
    Mr. Gohmert. OK. And I do want to follow up with a couple 
more questions. Did the lab management take the discovery of 
the second instance of continuous data manipulation seriously?
    Mr. Werkheiser. Yes. When the second incident was 
discovered, the lab management acted immediately to notify the 
energy resources program at headquarters, and initiated an 
internal investigation from our Office of Science, Quality, and 
Integrity. That investigation eventually led to notification to 
the Office of Inspector General. It was self-reported. And the 
science center management generated all those requests.
    Mr. Gohmert. The reason I ask is that the SIRP noted that 
the lab's lead physical scientist, quality assurance officer, 
asserted ``that all activities related to the SIRP are not 
necessary, and that the situation has been blown completely out 
of proportion.''
    Mr. Werkheiser. Yes.
    Mr. Gohmert. Well, that sounded like it was not being taken 
seriously.
    Mr. Werkheiser. Right. The QA/QC person was not in the 
management chain. They are not a supervisor. The management 
chain took it very seriously and reported it.
    Mr. Gohmert. Well, did the laboratory's culture fostered by 
the United States Geological Survey promote an environment 
where a person would feel comfortable coming forward to expose 
the wrongdoing?
    Mr. Werkheiser. That is our job. Our job is to create that 
environment.
    Mr. Gohmert. Well, I know it is your job. The question is 
about whether it was done.
    Mr. Werkheiser. Yes. In this case, I don't believe enough 
was done to create that environment.
    Mr. Gohmert. All right. The SIRP found that whistleblowing, 
related to the second incidence of data manipulation, created 
``a feeling of mistrust and resentment present at all levels.'' 
So, it sounds like there is a lot more work that needs to be 
done there.
    Mr. Werkheiser. I would certainly agree.
    Mr. Gohmert. All right. I yield to the gentleman from 
Arkansas for 5 minutes.
    Mr. Westerman. Thank you again, Mr. Chairman.
    Mr. Werkheiser, one thing that still troubles me is 
something in the response in the letter that you sent to 
Chairman Gohmert. It says here that we have been unable to 
determine either the rationale for the data manipulation or any 
consistent calculations that the analyst used in performing 
those data manipulations.
    Is that still being investigated, or is that your final say 
on it?
    Mr. Werkheiser. The analyst in question has been consistent 
in his responses that he viewed that he was doing an 
appropriate adjustment to the data, even though it is clear 
that it was not. So, I don't think any further questioning of 
that person is going to yield anything different than that.
    The investigation of, ``Was there a pattern, is there a 
consistency as to how that manipulation happened, the extent of 
what it was''--many of the reasons for it are still under 
investigation. Since we have been able to identify some of that 
through notebooks and those type of things, with that 
information we are trying to re-create what exactly happened.
    Mr. Westerman. So, there is still investigation going on to 
try to determine the rationale?
    Mr. Werkheiser. Yes.
    Mr. Westerman. OK. The June 2016 Department of the Interior 
Inspector General report noted that the second case of 
continuous data manipulation at the Lakewood facility affected, 
at a minimum, projects that received $108 million in funding. 
However, what remains unclear is the dollar value of the 
projects that were impacted by the data manipulation that 
occurred at the lab between 1996 and 2008, and we talked about 
that a little bit earlier about the records.
    Could you tell the committee what was the aggregate dollar 
value of the projects that were affected during this earlier 
12-year course of data manipulation?
    Mr. Werkheiser. We have been trying to assemble that 
information. Actually, I do not have that information, but I 
would like to follow up on the $108 million figure.
    That represents the total funding for those projects that 
used the lab. The actual value of those samples that were 
analyzed is much less than that. The projects and the results 
they make, they use many lines of evidence, they use outside 
labs, they use a number of--it represents the entire effort to 
produce a report or an assessment. The value of the impacted 
from the laboratory is probably a tenth of that.
    Mr. Westerman. Do you know how many projects were in that 
time period?
    Mr. Werkheiser. In the----
    Mr. Westerman. We have the dollar amount, but what was the 
number of projects affected?
    Mr. Werkheiser. In the second incident, it is 22 projects. 
We actually do not have the information for the first incident.
    Mr. Westerman. Do you happen to know how many projects 
there were?
    Mr. Werkheiser. Not for the first one. Those records just 
do not exist back that far. We have partial records, but dating 
back to 1996, that was prior to an automated laboratory 
information management system that was put in place in 2010.
    Mr. Westerman. Hopefully, you can understand the heartburn 
that creates, that there is a federally funded research lab 
with no data or no backup.
    Mr. Werkheiser. I do understand that on the financial side. 
We will try to re-create as much of that as we can.
    Mr. Westerman. Even on the research side.
    Mr. Werkheiser. Well, certainly on the research side, I 
think we know that the----Do we know how many projects? We do 
not know.
    Mr. Westerman. And no way to find out?
    Mr. Werkheiser. I will go back and try to.
    Mr. Westerman. I had a follow-up question--Did any of the 
data derived from the lab during this period affect any Federal 
legislation or regulation, Federal or state? If you don't even 
know what projects were done, obviously there is no way to 
determine if the research affected any state or Federal 
regulations.
    Mr. Werkheiser. I cannot address that with any certainty, 
that is true.
    Mr. Westerman. I guess with that, Mr. Chairman, I am at a 
loss for words.
    Mr. Gohmert. Mr. Hice, do you have any further questions?
    All right. I would like to thank the witness, Mr. 
Werkheiser, for being here. And I appreciate the participation 
of the Members, the Ranking Member. Obviously, this is a 
reminder why we must be vigilant and make every effort to hold 
the executive branch accountable to the taxpayers.
    While I hope this revelation of mass data manipulation is 
limited in scope, it is only through careful examination we can 
learn and move through and move forward with confidence. And it 
is normally an assurance to the public that we have this 
republican, small ``r,'' form of government, where we have 
representatives, and if one party or one administration is 
manipulating or providing an abusive work environment, then it 
has always been a bit of a comfort--well, the next one coming 
in will surely correct that.
    We have just seen an outrageous example of how none of 
those safeguards worked, none of the checks and balance work. 
And then we have someone, whose name I want to say on the 
record when we get the information, but you have people 
creating a hostile work environment, you have people totally 
manipulating data, fraudulent activity, a person involved in it 
is replaced to bring an end, only to see that continue on. It 
just is staggering.
    And, as we said at the beginning, I think the Ranking 
Member and I both have always thought of the United States 
Geological Survey as the gold standard; and now I am not even 
sure it merits a mercury standard. I mean, it is changing and 
moving and doesn't seem to have much of a form. It is like that 
terrible joke about what would you like the answer to be.
    Anyway, as much as I would like to dismiss this issue, we 
just cannot. As the facts come out, it seems to just open more 
and more questions. How did this go on over the span of three 
decades with the procedures, policy, and management over the 
course of 18 years? How does this happen? I know the United 
States Geological Survey wants to put this behind them, but as 
a committee, we cannot close the books on this when the 
Administration witness shows up with a two-sentence 
explanation.
    This was a chance to get the record straight. We have been 
assured that you will get us additional information when the 
investigation is concluded, but I would suggest to you that we 
are still waiting for documents that we requested 3 months ago. 
Some of the documents we did receive were redacted, they were 
duplicates, or even blank pages.
    This document I am holding up here is a record of Dionex-
IC-2000, 2011--Page 1 is a cover sheet; page 2, it is blank; 
page 3, it is blank; page 4, it is a comfort because this says 
this page is only for our committee use, and it is a blank 
piece of paper; page 5, this is only for committee use, and it 
is a blank piece of paper.
    I don't know what you were expecting this committee, 
whether it is this side of the aisle or that side of the aisle, 
what is a committee supposed to do? We are supposed to play 
tic-tac-toe on this? For committee use only, pages 6 and 7, 
blank pieces of paper. Oh, we have a little bit on page 8. 
Again, a blank piece of paper on page 9. Page 10, we at least 
have a few things on that. Page 11, another blank piece of 
paper.
    This is extraordinary. I mean, it is unbelievable. The 
Federal Government, regardless of administration, the Federal 
Government is being reduced to a joke, except it is so deadly 
serious.
    So, the gold standard, it is not even a good toilet paper 
standard. When you submit the additional information, please 
give us something besides blank pieces of paper, because 
otherwise, at the hearing where we get into the names of people 
who have dishonored the government, dishonored themselves, 
dishonored those who worked under them, we don't want to have 
to bring up your name as one of those that has dishonored the 
committee.
    You have been very gracious to come up here and to try to 
deal with this issue. But we hope as this administration comes 
to a close, the integrity and transparency will be restored, 
the Department of the Interior will abandon entrenched 
ideologies that have been going on over three decades, and 
finally hold wrongdoers accountable. Because one way or 
another, this committee is going to hold wrongdoers 
accountable, and we want to make sure that your name is not one 
of those who is helping cover for people who have done wrong 
over the years. If you will bear with me just one moment----
    With that, let me also mention, Ranking Member Dingell, or 
other members of the committee, may have some additional 
questions for the witness. Under our rules, if any Member has 
additional questions, you will be required to respond to those, 
and we are not talking about blank pieces of paper with a stamp 
on it that says, ``For Committee's Use Only.''
    Under Committee Rule 4(h), the hearing record will be held 
open for 10 business days to provide those responses after such 
questions, if any, are asked.
    If there is no further business, then at this time the 
committee stands adjourned. Thank you.

    [Whereupon, at 11:13 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
